    03/03/ 2008 14:50      213891 3567                              LOS ANGELES DIG                                 PAGE' 03/03
     f'eb   23 all 12. 4Sa                                                                                                }>.3




(

                               ,NATIONAL RAILROAD PASSENGER COIU'ORATION
                                      OFFICE OFll'lS l'J!;(;T OR G)l;NERAL
                                        OFFICE OJ! INVES')'lGATIONS
                                          INVES 'l'IOA' flVE CLOSI NG Rltl'O RT

           TITLE :                          Th0ft_~                                        CASE NUMnER: 04·88
            DATE oli REPORT:   FcbnlarY 26, 2008     • •0i~II':'-".
            REPORTl'REPAREnnV:                 ,SSA I\l\d ..        SA

            ~GS               OF FACT AND R];COMMENDATlONS

            A, FINDINGS OF FACT

            l.   DUring


                 been
                              Service Attendant ("I-SA") packet roviews by tho Office of fI'"peetor General
                                  of Investigations ("01"). it WAS determined that paeket~ belonging
                                     (onnel' LSA, had cO)l!llincu outler I'cpOlicd sates amounts. The packot.
                                        a Train Provision Management System ("TPMS              ") Clerk    who
                                                                                                               to.hod
                                                                                                                  hill!
                                                                                       funds for per~on6 1 gaill.
                 provioualy beon iltlpltonted in Mtivlties dMtgncd fo retotn Amtrak

            2.   or   fou~d   eight (8) sales paokets uelonglng to                  cOlltalned uudcl' repolted salos
                 alUOIllIts totaling $3,800.

                                to .(nllllngomcni tlmt _ l i e d falled to re.mit $3,ROO, and Amtrak
                                                                                                     issued
                 or reported
            3.
                 administrative charges against   _0,l May I?, 2004.
            4.   _wa s towinnted by Awtrak 011 November 5, 2001.

                 Amtrak withheld $2,800 in vacation pay from _~ nu"i payellcok,
            5.

            6.   On August 31, 200S, O!.rcfen..    d_'.       ORse to lIie \lnB'ed States Attornoy's Office.

                                                                                                _.
            7.   On JUne 1. 2006. the United Stutes Attornoy's Office deeline<llirosecntion o f

            8.   On October 26,2006,                      Attorney's Office agreed to [lW'm.e
                 rroseoution o f _.            was ill\li~ted by the Omnd J.JlY oltho Cirouit Court of
                       COlmty 01\ Ootober 3D, 2006.
                                                                                     the Circuit Court of
            9. Ou Pcbruaty 19, 2008 ._wa s cOllvicted of Theft by a plea ofguiily in also ordered to pay
               _Cou nty and sentenced to      0)10 year  of court supervIsion. _ was
               Amlrak restitution in the amount of $500.

            10. On February ?oS, 2008, or reooivod n oh.ok frOnt _           made pa)'obJ. to Amtrak I'M $~OO.

            lL..l!.l\COMME~DATlONS

            1. Closo elise.


            DCI;lU(Y Iuspector Ge'ne.rali'COllmjcl: _ _~:u.~         ___.___I.nt~l:_.-l'tf~~_
            Closwn Report 04·88.doe,L
